OIG Audit Report

Office of Justice Programs
Office of Juvenile Justice and Delinquency Prevention
Cooperative Agreement Awarded to New Mexico Attorney Generals Office
New Mexico
Audit Report GR-60-09-004
November 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division,  has completed an audit of the Internet Crimes Against Children (ICAC) Task  Force Program Cooperative Agreement No. 2004‑MC‑CX‑K008 in the amount  of $681,822 (including one supplement), awarded by the Office of Justice  Programs (OJP), Office of Juvenile Justice and Delinquency  Prevention (OJJDP), to the New Mexico Attorney General’s  Office (NMAGO). The purpose of the award  is to provide assistance to state and  local law enforcement agencies to enhance investigative responses to offenders  who use the Internet, online communication systems, or other computer  technology to sexually exploit children. 
 Since 1984, OJP has provided federal  leadership in developing the nation's capacity to prevent and control crime, improve  the criminal and juvenile justice systems, increase knowledge about crime and  related issues, and assist crime victims.  As a component of OJP, OJJDP  provides national leadership,  coordination, and resources to prevent and respond to juvenile delinquency and  victimization. 
 New    Mexico’s ICAC Task Force is under the NMAGO,  Investigations Division. The ICAC Task  Force works with the National Center for Missing and Exploited Children to  achieve a common goal ‑ the successful identification, apprehension  and prosecution of child molesters, child pornographers, child pornography  collectors or distributors, child abusers, and preferential sexual offenders  who target children. New Mexico’s ICAC Task Force develops cooperative  working agreements with local law enforcement agencies to facilitate their  training to investigate and prosecute these complex cyber cases. Currently, 13 agencies are affiliated with New Mexico’s ICAC Task  Force.
The purpose of this audit was to  determine whether reimbursements claimed for costs under the cooperative  agreement were allowable, supported, and in accordance with applicable laws,  regulations, guidelines, and terms and conditions of the cooperative agreement,  and to determine program performance and accomplishments. Our audit was designed to review performance  in the following areas:   (1) internal control environment; (2) drawdowns;  (3) cooperative agreement expenditures, including personnel and indirect  costs; (4) budget management and control; (5) matching;  (6) property management; (7) program income; (8) Financial  Status Reports (FSR), Categorical Assistance Progress Reports, and Monthly  Performance Measure Reports; (9) cooperative agreement requirements;  (10) program performance and accomplishments; and (11) monitoring of  subgrantees and contractors. We  determined that matching costs, program income, and monitoring of subgrantees  and contractors were not applicable to this cooperative agreement. As shown in Table 1, the NMAGO was awarded a  total of $681,822 to implement the program.
TABLE 1. ICAC TASK FORCE  PROGRAM COOPERATIVE 
                     AGREEMENT AWARDED TO NMAGO


COOPERATIVE AGREEMENT AWARD 
AWARD START DATE
AWARD   END    DATE
AWARD    AMOUNT


2004-MC-CX-K008Supplement 1
06/01/200406/01/2004
03/31/200605/31/2008
  $     281,822400,000


Total:
$ 681,822


Source:   Office of Justice Programs
We examined the NMAGO’s accounting  records, financial and progress reports, and operating policies and procedures  and found that the:

Financial Status Reports, Categorical Assistance  Progress Reports, and Monthly Performance Measure Reports were up to  215 days late and were inaccurate or unsupported and
Brochures that were produced with cooperative  agreement funds did not include the OJP Financial Guide required statement  acknowledging the awarding agency’s assistance on the brochures.

 These items are  discussed in detail in the Findings and Recommendations section of the  report. Our audit objectives, scope, and  methodology are discussed in Appendix I.



 




Return to OIG Home Page